               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




     Fiscal Year 2013 Conference Costs

                       Audit Report




                                              April 29, 2014
Report Number DP-AR-14-003
                                                                        April 29, 2014

                                               Fiscal Year 2013 Conference Costs

                                                       Report Number DP-AR-14-003




BACKGROUND:
Recent inspector general reports           the account does not identify which
highlighted excessive conference           expenditures are associated with
spending by federal agencies, including    conferences rather than meetings.
the General Services Administration and    Therefore, the controller polled the
the Department of Veteran Affairs. As a    Postal Service functional areas and
result, new laws were passed and the       identified two conferences costing in
Office of Management and Budget            excess of $100,000. This is the
issued guidance to create transparency     threshold the Office of Management and
in conference spending in the federal      Budget set for public reporting of
government. In response, federal           conference expenses. The two
agencies established programs to           conferences totaled $243,379, and we
identify, track, reduce, and report        did not identify any inappropriate
conference spending. The U.S. Postal       expenditures.
Service is not required to comply with
these laws, but compliance is important    We reviewed detailed Postal Service
to ensure conference expenditures are      accounting records, supporting
reasonable.                                documentation, journal vouchers, travel
                                           card transactions, and contracts and did
Our objective was to determine whether     not identify any additional conferences
the Postal Service properly monitored      costing more than $100,000 or any
and accounted for conference costs in      inappropriate conference costs in
fiscal year (FY) 2013.                     FY 2013. During our review of the
                                           various transactions we did identify
WHAT THE OIG FOUND:                        $17,318 of conference travel improperly
The Postal Service should improve its      classified as training expenses.
monitoring of and accounting for
conference costs. Specifically, the        WHAT THE OIG RECOMMENDED:
Postal Service was unable to               We recommended the Postal Service
immediately identify the number of         implement procedures to record,
FY 2013 conferences and their              identify, and account for all conferences
associated costs because management        exceeding $100,000, including
did not have a process to accurately       associated travel. Also, it should clarify
identify conference costs.                 policies and procedures regarding
                                           proper recording of conference travel
The Postal Service reported $4.2 million   expenses and correct $17,318 of
for FY 2013 in the expense account         misclassified expenses.
“Meetings and Conferences.” However,       Link to review the entire report
April 29, 2014

MEMORANDUM FOR:            SCOTT G. DAVIS
                           ACTING VICE PRESIDENT, CONTROLLER




FROM:                      Darrell E. Benjamin, Jr.
                           Deputy Assistant Inspector General
                            for Planning and Operations

SUBJECT:                   Audit Report – Fiscal Year 2013 Conference Costs
                           (Report Number DP-AR-14-003)

This report presents the results of our audit of Fiscal Year 2013 Conference Costs
(Project Number 13RG033DP000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Kevin H. Ellenberger, director,
Data Analysis and Performance, or me at 703-248-2100.

Attachment

cc: Corporate Audit and Response Management
Fiscal Year 2013 Conference Costs                                                                                  DP-AR-14-003




                                               TABLE OF CONTENTS

Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Monitoring Conference Costs .......................................................................................... 2

Accounting for Travel to Conferences ............................................................................. 2

Recommendations .......................................................................................................... 3

Management’s Comments .............................................................................................. 3

Evaluation of Management’s Comments ......................................................................... 3

Appendix A: Additional Information ................................................................................. 4

   Background ................................................................................................................. 4

   Objective, Scope, and Methodology ............................................................................ 5

   Prior Audit Coverage ................................................................................................... 6

Appendix B: Management’s Comments .......................................................................... 7
Fiscal Year 2013 Conference Costs                                                                 DP-AR-14-003




Introduction

This report presents the results of our audit of Fiscal Year (FY) 2013 Conference Costs
(Project Number 13RG033DP000). Our objective was to determine whether the U.S.
Postal Service properly monitored and accounted for conference costs in FY 2013. This
audit was self-initiated. See Appendix A for additional information about this audit.

The Office of Management and Budget (OMB) issued a memorandum in 2012 requiring
agencies to reduce travel and conference spending, strengthen internal controls for
managing this activity, and report publicly all conferences that cost more than $100,000.
As a result, federal agencies have implemented programs to identify, track, reduce, and
report conference spending.1 The reports generally include:

   A description of the purpose for the conference.
   The number of attendees.
   A detailed statement of the costs to the U.S. government.

Subsequent law requires federal agencies to report all agency-held conferences that
cost more than $20,000 to their inspectors general within 15 days of the event. Although
the Postal Service is not required to comply with this law or the OMB guidance,
transparency in Postal Service conference spending is important to ensure expenses
are reasonable, necessary, and allowable.

The Postal Service uses an account called "Meetings and Conferences" to record
internal and external event-related expenses, including conferences.2 The Postal
Service reported $4.2 million in "Meetings and Conferences" in FY 2013. An internal
management instruction (MI) provides both policies and procedures for purchase and
payment of official Postal Service internal and external business event-related
expenses.3 The MI defines allowable expenses, required supporting documentation,
approval authorities, and employee responsibilities.

The National Postal Forum is a not-for-profit educational corporation and its annual
conference attracts more than 4,000 attendees. The Postal Service participates in this
conference, but designates a separate General Ledger (GL) account for expenses
associated with it.4 For that reason, we did not examine expenses related to the
National Postal Forum during this audit.




1
  The Census Bureau, International Trade Administration, and U.S. Patent and Trademark Office are examples of
agencies that report conferences.
2
  GL Account 56605.
3
  MI FM 640-2008-1, Expenses for Internal and External Events, September 10, 2008.
4
  GL Account 56603.
                                                         1
Fiscal Year 2013 Conference Costs                                               DP-AR-14-003




Conclusion

The Postal Service should improve its monitoring of and accounting for conference
costs. Specifically, the Postal Service was unable to immediately identify the number of
FY 2013 conferences and their associated costs because management did not have a
process to accurately identify those costs. The controller polled the Postal Service
functional areas and identified two conferences costing in excess of $100,000. The
two conferences totaled $243,379, and expenditures for the conferences were
appropriate.

We reviewed detailed Postal Service accounting records, supporting documentation,
journal vouchers, travel card transactions, and contracts and did not identify any
additional conferences costing in excess of $100,000 or any inappropriate conference
costs in FY 2013. However, we did identify expenditures for travel to conferences of
$17,318 improperly classified as training expenses.

Monitoring Conference Costs

Management did not have a process to fully monitor conference costs. The Postal
Service reported $4.2 million for FY 2013 in the expense account "Meetings and
Conferences," which was established to record all expenditures related to both internal
and external events. However, the Postal Service does not identify which expenditures
in this account are specifically related to conferences. Other federal agencies have
programs to identify, track, and report publicly on conference spending for events
exceeding $100,000. These reports include:

   A description of the purpose of the conference.
   The number of participants.
   A detailed statement of the costs of the conference.

Federal agencies also have procedures to report all agency-held conferences that cost
more than $20,000 to their inspectors general within 15 days of the event. Postal
Service officials stated they did not feel it was necessary to specifically track conference
costs because the agency conducts very few conferences, and has curtailed this activity
in recent years. We think the Postal Service should track individual conference
expenses in order to minimize the risk of excessive spending on these events.

Accounting for Travel to Conferences

U.S. Postal Inspection Service employees attending the Financial Industry Mail Security
Initiative conference incorrectly used "travel for training" as the travel purpose for 17 of
83 electronic travel vouchers. Postal Service policy requires using "travel for meeting"
as the purpose when attending a conference. This error occurred because Postal
Inspection Service officials did not inform attendees about the proper procedures to




                                             2
Fiscal Year 2013 Conference Costs                                             DP-AR-14-003



account for their travel. Neither the meeting organizers nor the officials who approved
their expenses ensured the $17,318 in travel vouchers were properly completed.

Recommendations

We recommend the acting vice president, Controller:

1. Develop and implement procedures to identify and account for all conferences
   exceeding $100,000, including associated travel.

2. Clarify policies and procedures regarding the proper recording of conference travel
   expenses.

3. Ensure the misclassification of $17,318 in travel expenses is corrected.

Management’s Comments

Management agreed with recommendation 1 and will develop and implement
procedures to identify and account for all conferences exceeding $100,000. Specifically,
management will create a new GL account, and modify the eTravel system to identify
conference costs by September 2014.

Management also agreed with recommendation 2 and will clarify policies and
procedures regarding recording of conference travel expenses by updating MI FM 640-
2008-1 by June 2014.

Regarding recommendation 3, management stated the misclassified expenses cannot
be transferred because they occurred in the prior fiscal year. See Appendix B for
management’s comments, in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to recommendations 1 and 2, and corrective actions should
resolve the issues identified in the report. Regarding management’s response to
recommendation 3, we confirmed the Postal Service cannot correct the misclassification
of $17,318 in travel expenses from the prior fiscal year and it is not material to the
financial statements. Therefore, recommendation 3 will be closed with the issuance of
this report.




                                            3
Fiscal Year 2013 Conference Costs                                               DP-AR-14-003




                             Appendix A: Additional Information

Background

The OMB and other federal agencies issued guidance over the past few years to
elevate transparency in conference spending in the federal government, including the
following:

   The OMB issued Memorandum M-11-35, Eliminating Excess Conference Spending
    and Promoting Efficiency in Government, directing federal government agencies to
    eliminate wasteful and inefficient spending with respect to conference-related
    activities and expenses.

   The president issued Executive Order 13589, Promoting Efficient Spending,
    directing federal agencies to cut waste in several areas, including travel, publications
    and printing, federal fleet management, and extraneous promotional items.

   The OMB issued Memorandum M-12-12, Promoting Efficient Spending to Support
    Agency Operations, providing federal agencies with specific policies and practices to
    reduce costs and increase efficiency in conference-related activities. In particular, it
    directs agencies to report on its website all agency-sponsored conferences for the
    previous fiscal year that cost more than $100,000.

   The president signed Public Law 113-6, the Consolidated and Further Continuing
    Appropriations Act of 2013, directing federal agencies to report all agency-held
    conferences that cost more than $20,000 to their inspectors general within 15 days
    of the event.

The Postal Service uses an internal MI to provide policies and procedures for the
purchase and payment of official internal and external event-related business expenses.
This MI also references related policies and procedures contained in other Postal
Service directives. It defines internal and external events as follows:

   Internal events include on- or off-site official and non-routine meetings, conferences,
    training sessions, town hall meetings, briefings, or information-sharing events; and
    Postal Service employee recognition and appreciation events and gatherings.
    Internal events are mainly attended by Postal Service employees, but may include
    individuals representing outside organizations, contractors, and, in limited
    circumstances, employees’ immediate family members. Standing staff meetings and
    project meetings (those held on a set schedule for a set period of time, such as
    weekly or bi-weekly meetings) or short business meetings are not considered
    internal events in this MI. These routine meetings are considered business as usual.

   External events include on- and off-site official business events that benefit the
    Postal Service. While Postal Service employees (and contractors) may be required



                                             4
Fiscal Year 2013 Conference Costs                                                                     DP-AR-14-003



    to participate, they are mainly intended for and attended by customers or other
    external stakeholders, such as representatives of industry or special interest groups,
    foreign postal administrations and visitors, and suppliers.

During our audit, the Postal Service controller polled each of the functional areas to
obtain a list of all conference activity that exceeded $100,000, the threshold OMB set for
reporting on its website (see Table 1). We detected no transactions during our review of
accounting records, contracts, and travel expenses that would lead us to believe there
were additional conferences over $100,000.

                          Table 1. FY 2013 Postal Service Conferences




Objective, Scope, and Methodology

Our objective was to determine whether the Postal Service properly managed and
accounted for conference costs in FY 2013. We did not review expenses related to the
National Postal Forum.5

Specifically, we:

   Reviewed Postal Service and federal agency policies and procedures regarding
    conference spending oversight to determine whether those policies and procedures
    are satisfactory.
   Obtained a list of conferences held by the Postal Service in FY 2013,6 and evaluated
    supporting data and documentation.

   Obtained and reviewed supporting documentation for 60 judgmentally selected
    journal voucher transactions and interviewed credit card holders to determine
    whether any of the expenditures resulted from an unreported FY 2013 Postal
    Service conference.


5
  The Postal Service uses GL 56603 to record National Postal Forum-related expenses.
6
  For this audit, we defined a conference as a meeting, retreat, seminar, symposium, or event that involves attendee
travel in which expenses exceeded $100,000.


                                                          5
Fiscal Year 2013 Conference Costs                                                                       DP-AR-14-003



      Reviewed documentation supporting management's July 2013 validation of Postal
       Service meetings and conferences expenditures.

      Obtained a list of 23 contracts for FY 2013 conference-related expenses from the
       Denver Category Management Center and reviewed related detail reports from the
       Contract Management Authorizing System to determine whether any of the
       expenditures resulted from an unreported FY 2013 Postal Service conference.
      Conducted a site visit to the St. Louis Accounting Service Center to identify the
       procedures and controls in place when processing a travel voucher.
We conducted this performance audit from August 2013 through April 2014 in
accordance with generally accepted government auditing standards and included such
tests of internal controls as we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objective. We discussed our
observations and conclusions with management on March 26, 2014, and included their
comments where appropriate.

We assessed the reliability of Enterprise Data Warehouse (EDW)7 computer-processed
data. We traced sampled data to source documentation as a part of our review to
determine whether we can rely on those systems. We also interviewed officials
knowledgeable about the data and concluded that the EDW data were sufficiently
reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




7
    A central, enterprise-wide database that contains information extracted from operational systems.


                                                            6
Fiscal Year 2013 Conference Costs                              DP-AR-14-003



                           Appendix B: Management’s Comments




                                           7
Fiscal Year 2013 Conference Costs       DP-AR-14-003




                                    8
